                Department of Veterans Affairs
                Office of Inspector General



                  Office of Healthcare Inspections

Report No. 14-00992-210




                Healthcare Inspection

    Alleged Surgical Care Issues 

  Malcom Randall VA Medical Center 

         Gainesville, Florida 





July 14, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
                       Alleged Surgical Care Issues, Malcom Randall VA Medical Center, Gainesville, FL



                                 Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections conducted an
inspection in response to allegations concerning the Surgical Service at the Malcom
Randall VA Medical Center (the facility), Gainesville, FL. The facility is part of the North
Florida/South Georgia VA Healthcare System and Veterans Integrated Service
Network 8.

We did not substantiate that a cardiopulmonary resuscitation event in the operating
room was not handled appropriately. We did not substantiate that surgeons were not
allowed to perform a certain procedure in the operating room so that surgical mortality
data would be lower. We also did not substantiate that patients deemed at high risk of
mortality were sent to a local hospital so that if these patients died, the deaths would not
count against the facility’s surgical mortality data.

We noted that a team from Veterans Integrated Service Network 8 completed a site visit
at the facility in 2013 and made recommendations to strengthen the facility’s surgical
program. The facility developed and completed action plans based on these
recommendations.

We made no recommendations.

Comments
The Veterans Integrated Service Network and System Directors concurred with the
report. (See Appendixes A and B, pages 6–7, for the Directors’ comments.) No further
action is required.




                                                             JOHN D. DAIGH, JR., M.D.
                                                            Assistant Inspector General for
                                                              Healthcare Inspections




VA Office of Inspector General                                                                       i
                          Alleged Surgical Care Issues, Malcom Randall VA Medical Center, Gainesville, FL



                                                Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection in response to allegations made by an anonymous complainant regarding
surgical care issues at the Malcom Randall VA Medical Center, Gainesville, FL (the
facility). The purpose of the review was to determine if the allegations had merit.

                                            Background 

The facility is part of the North Florida/South Georgia VA Healthcare System within
Veterans Integrated Service Network (VISN) 8. The facility has acute medical, surgical,
and specialty services, with 240 inpatient beds, and is affiliated with Shands Hospital, a
local institution that is part of the University of Florida health care system.

Surgical Data

VA’s measures of surgical mortality include patient deaths within 30-days of a major
surgical procedure completed in the facility. The 30-day measure does not include
bedside procedures or VA-funded surgeries done in a private sector hospital.

Surgical mortality data is monitored at the national, VISN, and facility levels. VA’s
National Surgery Office1 (NSO) publishes a quarterly report to provide VISNs and
facilities with data to evaluate surgical care. The NSO report includes data analysis
results for patient outcomes, surgical mortality, safety, access, productivity, and
operating room (OR) efficiency.

VISN Surgical Quality Visit

In June 2013, the VISN 8 Surgical Quality Improvement Team conducted a review of
the facility’s surgical program. The review included interviews with physician staff, an
organizational structure assessment, and reviews of relevant documents and electronic
health records (EHRs). The review resulted in several recommendations to strengthen
the facility’s surgical program. NSO data and resulting reviews are confidential and
privileged under the provisions of Title 38, U.S. Code section 5705.

Allegations

The complainant alleged that the Chiefs of Surgery and Anesthesia took inappropriate
actions to improve the facility’s surgical mortality data. Specifically:

      	 A patient was inappropriately transferred to the surgical intensive care unit
         (SICU) during a cardiopulmonary resuscitation event in the OR.

      	 Surgeons were not permitted to perform a procedure in the OR so that surgical
         mortality data would be lower.

1
    VHA Handbook 1102.01, National Surgery Office, January 30, 2013.


VA Office of Inspector General                                                                         1
                        Alleged Surgical Care Issues, Malcom Randall VA Medical Center, Gainesville, FL


       High-risk patients were sent to Shands Hospital so that if these patients died, the
        deaths would not count against the facility’s surgical mortality data.

                              Scope and Methodology 

The allegations did not include patient names or dates of incidents, nor could we identify
any through document review. Therefore, we designed and administered a brief survey
through a confidential and secure website available to all staff in Surgery Service,
Anesthesia Service, and the OR setting. We asked staff if they had concerns about
surgical quality, instances of patient harm, unnecessary increases in Non-VA Care
Coordination (NVCC)2 referrals, and/or examples of inappropriate actions taken to
manipulate surgical mortality data. We conducted telephone interviews with staff who
indicated on the survey tool that they would like to speak with us.

We reviewed EHRs, quality management documents, committee minutes, NSO reports
(including surgical mortality data), and specific surgical case peer reviews from
October 1, 2013 through March 31, 2014.           We also reviewed administrative
investigation board findings and aggregate data relevant to surgical cases completed
both at the facility and those sent to the community through NVCC. In addition, we
reviewed relevant facility and VHA policies.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




2
 Non VA Care Coordination, formerly known as “fee basis,” is the VA system for referring patients to community
providers for care under VA pay.


VA Office of Inspector General                                                                                   2
                          Alleged Surgical Care Issues, Malcom Randall VA Medical Center, Gainesville, FL



                                       Inspection Results 

Issue 1: Inappropriate Care

We did not substantiate the allegation that a patient was inappropriately transferred to
the SICU during a cardiopulmonary resuscitation3 event in the OR.

We interviewed staff who reportedly witnessed this event but who did not provide a
patient name. We were told that a patient experienced a cardiac arrest before a
surgical procedure was started, resuscitation was begun, and the patient was
transferred to the SICU for stabilization. We reviewed 6 months of the facility’s
Emergency Effectiveness Committee minutes in an attempt to identify the specific
patient but did not find a reference to such an event. Based on the information
available, we considered that moving the patient from the OR to the SICU would have
been reasonable under such circumstances since the patient would no longer have
been a candidate for surgical intervention and would have required close monitoring.

Issue 2: Surgical Procedures

We did not substantiate the allegation that surgeons were not allowed to perform a
certain procedure in the OR on SICU patients due to the potential for increased
mortality rates.

We interviewed surgeons who performed the procedure in the SICU and OR. No one
we interviewed indicated that they were told to perform the procedure in the SICU,
rather than the OR, to avoid negatively impacting surgical mortality data. The
procedure is commonly performed in the SICU setting and, at this facility, providers are
granted privileges by the Professional Standards Board to perform this procedure in that
setting. We were told that maximizing OR resources was a factor in determining where
procedures were done. Furthermore, we were told by multiple staff that no procedures
were withheld because of concerns about impacting the facility’s 30-day mortality data.

Issue 3: Increase in Non-VA Complex Surgical Care

We did not substantiate the allegation that an increased number of high-risk surgical
patients were referred to Shands Hospital under NVCC to avoid affecting the facility’s
surgical performance data should a patient die.

We reviewed facility NVCC surgical referral data and found no pattern of inappropriate
referrals. A defined process was in place for clinical review, justification, and approval
prior to an authorization for services outside of the facility in a private sector hospital.
Review of data of patients referred to Shands Hospital did not reflect an increased
referral trend for surgical procedures.

3
  A procedure designed to restore normal breathing after cardiac arrest that includes the clearance of air passages to
the lungs, artificial respiration, heart massage by the exertion of pressure on the chest, and advanced procedures with
medications to promote survival of the patient. 


VA Office of Inspector General                                                                                       3
                            Alleged Surgical Care Issues, Malcom Randall VA Medical Center, Gainesville, FL


In some instances, complex patients must be referred to non-VA providers. One of the
surgeons told us that patients requiring complex procedures that involved
reconstruction4 were referred to NVCC providers because the reconstructive part of the
surgery is not performed at the facility.

Survey Results

The confidential website survey was made available to physicians, surgeons, and other
clinical staff during February 4–10, 2014. Of the 155 staff that were offered the
opportunity to provide us with feedback, we received 32 responses. Survey results
were as follows.

                                  Table 1. Surgical Care Issues Survey
Answer                Q1. Are you aware        Q2. Do you have          Q3. Have your            Q4. Has there
Choices:              of any actions           any specific             concerns already         been a recent
                      taken to                 quality of care or       been addressed by        change in the
                      manipulate               patient safety           Service or Medical       number of
                      surgical outcomes        concerns                 Center                   surgeries sent
                      data?                    affecting surgical       Leadership?              out for Non-VA
                                               patients?                                         care (fee basis)?
      YES                 3 (9 percent)          11 (34 percent)           6 (19 percent)           1 (3 percent)
NO or NOT TO
      MY                 29 (91 percent)          21 (66 percent)          6 (19 percent)          31 (97 percent)
 KNOWLEGE
     NOT
                                                                          18 (56 percent)
 APPLICABLE
  HAVE NOT
  BROUGHT
                                                                            2 (6 percent)
 CONCERNS
  FORWARD
Source: VAOIG

We shared the survey results with the Facility Director. Survey comments that reflected
new allegations (unrelated to those within the scope of this report) were reviewed.
Several procedures were identified in the survey comments as having poor outcomes.
OIG physicians reviewed EHR documentation for all patients who had the identified
procedures performed within the last 2 years and did not find poor outcomes
subsequent to the procedures.

                                              Conclusions 

We did not substantiate that a patient was inappropriately transferred to the SICU
during a cardiopulmonary resuscitation event in the OR. We did not substantiate that
surgeons were not permitted to perform certain procedures in the OR in order to ensure
that surgical mortality data would be lower. We did not substantiate that high-risk
patients were sent to a local hospital to ensure the deaths would not count against the
facility’s surgical mortality data should the patients die. We noted that the VISN sent a

4
    This is a surgical procedure to restore function or normal appearance by remaking defective organs or parts.


VA Office of Inspector General                                                                                       4
                       Alleged Surgical Care Issues, Malcom Randall VA Medical Center, Gainesville, FL


team to inspect the facility’s surgical program during 2013, and the facility has taken
action based on the team’s recommendations.

Based on results of staff comments from our survey, EHRs were reviewed to determine
if there were poor outcomes from certain types of procedures. We did not substantiate
that the outcomes of certain procedures were poor.

We made no recommendations.




VA Office of Inspector General                                                                      5
                       Alleged Surgical Care Issues, Malcom Randall VA Medical Center, Gainesville, FL
                                                                                         Appendix A
                            VISN Director Comments


               Department of
               Veterans Affairs                                      Memorandum


    Date:      June 16, 2014

    From:      Director, VA Sunshine Healthcare Network (10N08)

 Subject:      Draft Report—Healthcare Inspection – Surgical Care Issues, Malcom
               Randall VA Medical Center, Gainesville, Florida

       To:     Director, Region Office of Healthcare Inspections (54SP)
               Director, Management Review Service (VHA 10AR MRS OIG Hotline)


               I have reviewed and concur with the conclusion of no findings or
               recommendations based on this report.

               Thank you for the opportunity to add comments however no additional
               comments are requested.




               Joleen Clark, MBA, FACHE




VA Office of Inspector General                                                                      6
                        Alleged Surgical Care Issues, Malcom Randall VA Medical Center, Gainesville, FL
                                                                                          Appendix B
                          System Director Comments


               Department of
               Veterans Affairs                                       Memorandum


     Date:     May 30, 2014

     From:     Director, North Florida/South Georgia Veterans Health System (573/00)

   Subject: Draft Report - Healthcare Inspection – Surgical Care Issues,
            Malcom Randall VA Medical Center, Gainesville, Florida

       To:     Director, VA Sunshine Healthcare Network (10N8)


             1. The VA Office of Inspector General (OIG) Office	 of Healthcare
                Inspections conducted an inspection to assess the merit of allegations
                made by an anonymous complainant regarding Surgical Services at
                the Malcom Randall, VA Medical Center, Gainesville, FL, a component
                of the North Florida /South Georgia VA Healthcare System.

             2. I concur with the conclusions of the OIG who following their review had
                no findings to substantiate the allegations.




             Thomas Wisnieski, MPA, FACHE

             Director




VA Office of Inspector General                                                                       7
                       Alleged Surgical Care Issues, Malcom Randall VA Medical Center, Gainesville, FL
                                                                                         Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             David Griffith, RN, BS, Team Leader
                         Marnette Dhooghe, MS
                         Karen McGoff-Yost, MSW, LCSW
                         Carol Torczon, MSN, ACNP
                         Michael Shepherd, MD
                         George Wesley, MD 

                         Robert Yang, MD





VA Office of Inspector General                                                                      8
                       Alleged Surgical Care Issues, Malcom Randall VA Medical Center, Gainesville, FL
                                                                                         Appendix D

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Sunshine Healthcare Network (10N8)
Director, Malcom Randall VAMC (573/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Saxby Chambliss, Johnny Isakson, Bill Nelson, Marco Rubio
U.S. House of Representatives: Sanford D. Bishop, Jr., Corrine Brown, Ander
 Crenshaw, Ron DeSantis, Jack Kingston, Rich Nugent, Austin Scott, Steve
 Southerland, II, Ted S. Yoho


This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                      9
